CERTIFICATE OF COMPLIANCE

 

No. 19-259
MARON PICTURES LTD.,
Petitioner,
vs.

SAM EIGEN et al.,
Respondents,

I hereby certify as required by Supreme Court Rule
33.1(h) that the Reply to Brief in Opposition contains
2,998 words including footnotes, as counted by the
word-processing program used to generate the text.
This count excludes the company disclosure
statement, table of contents and table of authorities.

I declare under penalty of perjury that the foregoing
is true and correct.

Executed on October 15, 2019.

 
